U.S. Department of the Interior
Office of Inspector General

                             Audit Report

                    Payroll Operations
              Department of Education
        Government of the Virgin Islands




                            Report No. 01-I-330
                            May 2001
EXECUTIVE SUMMARY
                    The Department of Education used $107.21 million (91 percent of
BACKGROUND          General Fund appropriations) in fiscal year 1999 and
                    $105.70 million (88 percent of General Fund appropriations) in
                    fiscal year 2000 to pay salaries and fringe benefits for about
                    2,700 teachers, administrators, and support personnel. In addition,
                    Education used $11.64 million (39 percent of Federal funds) in
                    fiscal year 1999 and $13.71 million (45 percent of Federal funds)
                    in fiscal year 2000 to pay salaries and fringe benefits for about
                    600 teachers, administrators, and support personnel.


                    The objective of the audit was to determine whether Education had
OBJECTIVE           adequate controls over its payroll and time and attendance
                    functions to ensure that amounts paid to employees were accurate
                    and were charged to the proper accounts.


                    We concluded that Education had adequate internal controls over
RESULTS IN BRIEF    the preparation of time and attendance records and the distribution
                    of payroll checks and direct deposit statements. We also
                    concluded that Education generally paid employees from the
                    correct Government accounts. We found, however, for 292
                    employees in our sample, that in 9 instances totaling $163,000
                    employees had been incorrectly paid from Federal instead of local
                    funds. At the time of our review, Education had already found and
                    corrected three of these errors and had partially corrected one
                    error, but it had not corrected the remaining five errors. As a
                    result, we took exception to charges against Federal funds totaling
                    $120,000 that related to the six payroll errors that had not been
                    fully corrected (see Appendix 1).


                    We made three recommendations to the Governor of the Virgin
RECOMMENDATIONS     Islands to address the internal control weaknesses that allowed
                    employees to be paid from the incorrect Government accounts.


                    The Governor concurred with the three recommendations and
AUDITEE COMMENTS    indicated that corrective actions had been or were being taken.
AND OFFICE OF       Based on the response, the three recommendations were
INSPECTOR GENERAL   considered resolved and implemented.
EVALUATION
2
CONTENTS
                   ................................................                                         1
EXECUTIVE
SUMMARY

                   Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   5
INTRODUCTION       Objective and Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        5
                   Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         6

                   ................................................                                         7
RESULTS OF AUDIT

                   ................................................                                         9
RECOMMENDATIONS

                   1. Monetary Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
APPENDIX           2. Response to Audit Report . . . . . . . . . . . . . . . . . . . . . . . . 11
                   3. Status of Recommendations . . . . . . . . . . . . . . . . . . . . . . . 14




                                       3
4
INTRODUCTION
                The Department of Education is responsible for administering and
BACKGROUND      operating all Virgin Islands public elementary and secondary
                schools; vocational, adult, and special education programs; and
                support services such as curriculum centers and libraries for both
                public and nonpublic schools. Education received General Fund
                appropriations of $118.15 million in fiscal year 1999 and
                $120.24 million in fiscal year 2000. Of those amounts,
                $107.21 million (91 percent) in fiscal year 1999 and
                $105.70 million (88 percent) in fiscal year 2000 were used to pay
                salaries and fringe benefits for about 2,700 teachers,
                administrators, and support personnel. In addition, Education
                received Federal grant funds of $29.72 million in fiscal year 1999
                and $20.32 million in fiscal year 2000. Of those amounts,
                $11.64 million (39 percent) in fiscal year 1999 and $13.71 million
                (45 percent) in fiscal year 2000 were used to pay salaries and
                fringe benefits for about 600 teachers, administrators, and support
                personnel.


                The objective of the audit was to determine whether the
OBJECTIVE AND   Department of Education had adequate controls over its payroll
SCOPE           and time and attendance functions to ensure that amounts paid to
                employees were accurate and were charged to the proper accounts.

                To accomplish our audit objective, we reviewed payroll
                operations for fiscal years 1999 and 2000 (through May 2000).
                The records reviewed included time and attendance records for
                3,000 employees at selected public schools and operating
                divisions of the Department of Education on St. Thomas and
                St. Croix, payroll and supplemental payroll registers at the
                Department of Finance for a sample of 10 pay periods, and
                Notices of Personnel Action at the Division of Personnel. With
                auditors from the U.S. Department of Education, we also jointly
                observed the distribution of payroll checks and direct deposit
                statements. However, to avoid duplication of effort, we did not
                review payroll operations and records for the Special Education
                Program, which were reviewed by U.S. Department of Education
                auditors.

                Our audit was conducted in accordance with the "Government
                Auditing Standards," issued by the Comptroller General of the
                United States. Accordingly, we included such tests of records and
                other auditing procedures that were considered necessary under
                the circumstances. The "Standards" requires that we obtain

                               5
              sufficient, competent, and relevant evidence to provide a
              reasonable basis for our findings and conclusions.

              As part of our audit, we evaluated the internal controls over
              payroll operations at the Department of Education to the extent we
              considered necessary to accomplish the audit objective. We
              identified an internal control weakness related to ensuring that
              payroll expenses were charged to the correct Government
              accounts. This internal control weakness is discussed in the
              Results of Audit section of this report. The recommendations, if
              implemented, should improve the internal controls in this area.


              In September 1999, the Office of Inspector General issued the
PRIOR AUDIT   audit report "Selected Federal Grant Programs, Department of
COVERAGE      Education, Government of the Virgin Islands" (No. 99-I-956). The
              report stated, with respect to payroll operations, that Education did
              not ensure that personal services costs were properly supported
              and were charged to the correct accounts. As a result, we took
              exception to payroll charges totaling $61,800 and classified
              additional payroll charges totaling $8,340 as unsupported costs.




                             6
RESULTS OF AUDIT
                  The Department of Education had adequate internal controls over
OVERVIEW          the preparation of time and attendance records and the distribution
                  of payroll checks and direct deposit statements. In order to
                  conclude that adequate internal controls existed, we reviewed
                  individual time sheets prepared by Education employees and
                  maintained at the employees’ respective schools or operating
                  divisions, reviewed payroll and supplemental payroll registers at
                  the Department of Finance to ensure that payroll withholdings
                  were accurately and consistently deducted from employee
                  earnings, observed the physical distribution of payroll checks and
                  direct deposit statements at a sample of schools and operating
                  divisions, corroborated the status of dual employees and
                  corroborated the cancellation of any duplicate payments, and
                  verified that each employee who was included in the payroll at
                  Education had a duly executed Notice of Personnel Action on file
                  at the Division of Personnel.

                  We also concluded that Education generally paid employees from
                  the correct Government accounts. We found, however, for 292
                  employees in our sample, that in 9 instances totaling $163,000
                  employees had been incorrectly paid from Federal instead of local
                  funds. At the time of our review, Education had already found and
                  corrected three of these errors and partially corrected one error,
                  but it had not corrected the remaining five errors. As a result, we
                  took exception to charges against Federal funds totaling $120,000
                  that related to the six payroll errors that had not been fully
                  corrected (see Appendix 1).


                  Although Education paid its employees from the correct accounts
SOURCES OF        in most instances (283 of 292 employees in our sample), we found
PAYROLL FUNDING   nine instances totaling $163,000 in which employees were
                  incorrectly paid from Federal grant accounts instead of from the
                  appropriate General Fund accounts. We identified these errors by
                  comparing, for all employees who should have been paid from
                  Federal funds during two selected pay periods, the funding sources
                  as indicated on the employees’ Notices of Personnel Action with
                  the funding sources shown on the payroll registers. Education was
                  aware of four of the errors and had processed three miscellaneous
                  disbursement vouchers totaling $43,000 to reimburse the Federal
                  accounts. However, in one of the cases, Education had not
                  reimbursed the entire improper amount. Additionally, at the time
                  of our review, Education had not processed reimbursements to the
                  Federal accounts for the other five cases of incorrect payments that

                                 7
we identified. Therefore, we estimated that Federal grant accounts
were owed about $120,000 for payroll charges that should have
been made against General Fund accounts.

The Education accountant responsible for processing Federal
drawdowns for employee payrolls said that Education
acknowledged that Federal funds were sometimes inadvertently
used to pay the salary costs of General Fund employees. The
accountant also said that sometimes the General Fund was also
inadvertently used to pay the salary costs of Federal fund
employees. The accountant explained that the process used to
determine the source of funding for employees’ salaries is driven
by the Notices of Personnel Action. Therefore, a change cannot be
made in the payroll system unless a new Notice of Personnel
Action is prepared by Education and keypunched into the computer
system at the Division of Personnel and transmitted to the
Department of Finance for updating of the data in the
Government’s financial management system.

The accountant further explained that because of delays in
keypunching the data at the Department of Finance, errors on the
Notices of Personnel Action were not always corrected timely. At
the February 2, 2001, exit meeting on the preliminary draft of this
report, the Commissioner of Education stated that Education
maintained accurate in-house records regarding the sources of
payroll funding but that delays by the Department of Finance in
keypunching updated information from Notices of Personnel
Action may have resulted in incorrect information being used by
Finance when it processed payroll transactions. In addition, we
noted that undetected keypunch errors could result in the wrong
funding sources being charged for an employee’s salary costs.

We found that Education did not assign an employee to
periodically review the funding source designations for its
employees to ensure that they were being paid from the correct
accounts. We provided the accountant with the information on the
six cases of incorrect payments so that he could ensure that
necessary corrections and reimbursements were made. In our
opinion, in order to determine whether there are additional
instances of employees being paid from the wrong funding sources,
Education should conduct a more in-depth analysis of the fiscal
year 1999 and 2000 payroll records and correct inaccurate payroll
records and reimburse funds as appropriate.




               8
RECOMMENDATIONS
                  We recommend that the Governor of the Virgin Islands direct the
TO THE GOVERNOR   Commissioner of Education to:
OF THE VIRGIN
ISLANDS                  1. Process the necessary adjustments to reimburse the
                  Federal grant accounts for the $120,000 in payroll charges that
                  should have been paid from General Fund accounts.

                          2. Conduct an analysis of employee payroll records for
                  fiscal years 1999 and 2000 to determine whether payroll charges
                  were made to incorrect accounts for additional Education
                  employees. If any additional errors are identified, payroll records
                  should be corrected and funds reimbursed as appropriate.

                           3. Establish procedures to conduct, on at least a
                  semiannual basis, a review of employee payroll records to ensure
                  that the correct funding sources are indicated in each employee’s
                  record.


                  The March 27, 2001 response (Appendix 2) to the draft report
GOVERNOR OF THE   from the Governor of the Virgin Islands concurred with the three
VIRGIN ISLANDS    recommendations and indicated that corrective actions had been or
RESPONSE          were being taken.


                  Based on the response, we consider the three recommendations
OFFICE OF         resolved and implemented. Therefore, no further response to this
INSPECTOR         report is required (see Appendix 3).
GENERAL
REPLY




                                 9
APPENDIX 1 - MONETARY IMPACT
                                          Questioned Costs
FINDING AREAS                             (Cost Exception)*

Sources of Payroll Funding                    $120,000




____________
* Amount represents Federal funds.




                                     10
APPENDIX 2 - RESPONSE TO DRAFT REPORT




                   11
12
13
APPENDIX 3 - STATUS OF RECOMMENDATIONS
Finding/Recommendation
       Reference            Status                      Action Required

      1, 2, and 3        Implemented.   No further action is required.




                                        14
 Mission Statement
 The Office of Inspector General conducts and supervises audits
 and investigations of Department of the Interior and insular area
 government programs and operations to:

 ! Promote the economy, efficiency, and effectiveness of programs
   and operations and

 ! Prevent and detect fraud, waste, and abuse in programs and
   operations.




How to Report Fraud, Waste, and Abuse
 Fraud, waste, and abuse in Government are the concern of
 everyone – Office of Inspector General staff, Departmental
 employees, and the general public. We actively solicit allegations
 of any inefficient and wasteful practices, fraud, and abuse related
 to Departmental or insular area programs and operations. You can
 report allegations to us by:

 Mail:         U.S. Department of the Interior
               Office of Inspector General
               Mail Stop 5341-MIB
               1849 C Street, NW
               Washington, DC 20240

 Phone:        24-Hour Toll Free                     800-424-5081

               Washington Metro Area                 202-208-5300
               Hearing Impaired                      202-208-2420
               Fax                                   202-208-6023

               Caribbean Regional Office             340-774-8300
               Pacific Field Office                  671-647-6060

 Internet:     www.oig.doi.gov/hotline_form.html
